Audit Report




OIG-12-040
SAFETY AND SOUNDNESS: Material Loss Review of Republic
Federal Bank, N.A.
February 7, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
 
Contents

Audit Report

  Causes of Republic’s Failure ......................................................................... 2
    Republic Experienced a Sharp Increase in Losses Due to Weak Board and
       Management Oversight ....................................................................... 3
    Republic Embarked on a Series of Failed Strategic Initiatives ........................ 4

  OCC’s Supervision of Republic ......................................................................                 6
    OCC Identified Republic’s Problems and Communicated Its
       Concerns to the Bank .........................................................................                 7
    OCC’s Approval of Republic’s Acquisition of PineBank ................................                             8
    OCC Took Formal Enforcement Action When Republic Did Not Follow Its
       Strategic Plan, But Should Have Acted Sooner.......................................                            9
    OCC Initiated PCA When Republic’s Capital Levels Declined ........................                                9

  Conclusions ...................................................................................................... 11

Appendices

  Appendix      1:      Objectives, Scope, and Methodology ......................................                     12
  Appendix      2:      Background..........................................................................          15
  Appendix      3:      Management Response .........................................................                 16
  Appendix      4:      Major Contributors to This Report ...........................................                 17
  Appendix      5:      Report Distribution. ...............................................................          18

Abbreviations

  BSA                   Bank Secrecy Act
  CEO                   chief executive officer
  CDO                   collateralized debt obligations
  COB                   chairman of the board
  CRP                   capital restoration plan
  FDIC                  Federal Deposit Insurance Corporation
  MOU                   memorandum of understanding
  OCC                   Office of the Comptroller of the Currency
  OIG                   Office of Inspector General
  PCA                   prompt corrective action
  PTA                   payable through accounts




                        Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)                    Page i 
This Page Intentionally Left Blank.
                                                                                                               Audit
OIG
The Department of the Treasury
                                                                                                               Report
Office of Inspector General




                                            February 7, 2012

                                            John G. Walsh
                                            Acting Comptroller of the Currency

                                            This report presents the results of our review of the failure of
                                            Republic Federal Bank, N.A. (Republic), headquartered in Miami,
                                            Florida, and of the Office of the Comptroller of the Currency’s
                                            (OCC) supervision of the institution. OCC closed Republic on
                                            December 11, 2009, and appointed the Federal Deposit Insurance
                                            Corporation (FDIC) as receiver. This review was mandated by
                                            section 38(k) of the Federal Deposit Insurance Act because of the
                                            magnitude of Republic’s estimated loss to the Deposit Insurance
                                            Fund. 1,2 As of August 29, 2011, FDIC estimated that the loss
                                            would be $120.6 million. 3  FDIC also estimated a loss of $9.0
                                            million to the Temporary Liquidation Guarantee Program.

                                            Our objectives were to determine the causes of Republic’s failure;
                                            assess OCC’s supervision of the bank, including implementation of
                                            the prompt corrective action (PCA) provisions of section 38(k); and
                                            make recommendations for preventing such a loss in the future. To
                                            accomplish these objectives, we reviewed the supervisory files and
                                            interviewed OCC and FDIC officials. We conducted our fieldwork
                                            from January through May 2010. Appendix 1 contains a more
                                            detailed description of our review objectives, scope, and
                                            methodology. Appendix 2 contains background information on

                                                            
1
  At the time of Republic’s failure, section 38(k) defined a loss as material if it exceeds the greater of
$25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, the Dodd-Frank Wall
Street Reform and Consumer Protection Act defines a loss as material if it exceeds $200 million for
calendar years 2010 and 2011, $150 million for calendar years 2012 and 2013, and $50 million for
calendar years 2014 and thereafter (with a provision for a temporary increase to $75 million if certain
conditions are met).
2
  Certain terms that are underlined when first used in this report are defined in Safety and Soundness:
Material Loss Review Glossary, OIG-11-065 (April 11, 2011). That document is available on the
Treasury Office of Inspector General’s website at Hhttp://www.treasury.gov/about/organizational-
structure/ig/Pages/by-date-2011.aspxH.
3
  The original loss estimate was $115.1 million at closing.

                                            Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)       Page 1
              Republic’s history and OCC’s assessment fees and examination
              hours.

              In brief, Republic failed because of significant losses over several
              years, which resulted from the inability of the bank’s board of
              directors and management to establish effective internal controls,
              risk management, and credit administration practices. It also was
              unable to implement a sustainable strategic plan. For example, in
              September 2006, Republic’s acquisition of another national bank,
              PineBank, more than doubled its assets; however, many of the
              acquired loan assets were high-risk and poorly underwritten and
              their credit quality deteriorated rapidly.

              With respect to OCC’s supervision, OCC examinations were
              generally conducted in a timely manner and the bank was properly
              transferred to OCC’s Special Supervision Division in March 2005
              for closer monitoring. OCC identified significant problems with
              Republic in November 2007 but did not take formal enforcement
              action until June 2008. We believe OCC should have taken formal
              enforcement action sooner in accordance with its own guidance.
              We did conclude, however, that OCC appropriately took PCA when
              Republic became undercapitalized. We are not making any new
              recommendations to OCC as a result of our material loss review of
              Republic.

              We provided a draft of this report to OCC for its review. In a
              written response, which is included as appendix 3, OCC stated that
              it agreed with our conclusions as to the causes of Republic’s failure
              and our assessment of OCC’s supervision over the bank.


Causes of Republic’s Failure
              Republic failed when it sustained a string of significant losses from
              2005 through 2009. The losses occurred because of weak board
              of directors and management oversight and the lack of an effective
              strategic plan, which resulted in a series of flawed business
              decisions that eroded asset quality, earnings, and capital.
              Republic’s board and management did not establish effective
              internal controls or adequate risk management and credit
              administration practices. In addition, the board and management
              were unable to identify and implement a sustainable strategic
              direction; instead Republic launched an unprofitable out-of-state

              Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)   Page 2
mortgage lending operation, made risky investments, and acquired
a poorly performing bank. All these ventures proved to be
unsuccessful.

Republic Experienced a Sharp Increase in Losses Due to Weak
Board and Management Oversight

Weak board oversight and management of Republic and the lack of
a realistic, sustainable strategic plan, combined with a deteriorating
economy, led to 5 consecutive years of losses totaling $62 million
from 2005 through 2009. As shown in figure 1, Republic
experienced over $50 million of these losses in its last 2 years of
operations alone.

Figure 1: Net Income for Republic Bank During 2005-2009a
          (millions)




a
 For years 2005 through 2008, data is as of December 31. For 2009, data is as
of September 30.
Source: Office of Inspector General (OIG) analysis of OCC reports of examination.

Over the years, examiners found that Republic did not implement
sound internal controls or adequate risk management and credit
administration practices. In 2008, for example, internal control
deficiencies in the bank’s general ledger loan account reconciliation
process required a $1 million adjustment. In 2009, examiners
found that management did not recognize losses in a timely
manner, accurately assign loan risk ratings, update collateral
values, and obtain current credit information. By 2009, the volume


Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)                    Page 3
                                            and severity of Republic’s problems were beyond the ability of the
                                            board and management to correct.

                                            Republic Embarked on a Series of Failed Strategic Initiatives

                                            With the increased national concern about potential money
                                            laundering and financing of terrorists, Republic exited its payable-
                                            through accounts (PTA) line of business in late 2004 and early
                                            2005. 4 Republic attempted to replace its lost deposits and fee
                                            income tied to this line of business with earnings from its
                                            residential mortgage lending operations in New York and California.
                                            The mortgage operations never became profitable and were closed
                                            in 2007.

                                            Between late 2004 and early 2005, Republic also purchased $30
                                            million in collateral debt obligations (CDO) for its investment
                                            portfolio. The CDOs were investment grade when purchased but
                                            later proved to be high-risk. In 2008, Republic sustained $5.3
                                            million in other-than-temporary-impairment losses resulting from
                                            this investment. In early 2009, Republic recorded additional other-
                                            than-temporary-impairment losses of $3.9 million and the
                                            investment portfolio had become an inadequate source of
                                            secondary liquidity. As a result, OCC examiners found the CDO
                                            investments were unsafe and unsound. As economic conditions
                                            worsened, asset quality deteriorated further and adversely
                                            classified assets rose sharply. As shown in figure 2, adversely
                                            classified assets as a percentage of Tier 1 capital plus allowance
                                            for loan and lease losses rose from 3 percent in December 2005 to
                                            600 percent by September 2009.




                                                            
4
  PTAs are demand deposits through which a bank extends check writing privileges to its customers of
foreign banks. Republic exited this business due to concerns about possible money laundering by its
customers using the privilege.

                                            Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)   Page 4
Figure 2: Growth in Republic Bank Classified Assets 2005 - 2009a




Source: OIG analysis of OCC data.
a
  For years 2005 through 2008, data is as of December 31. For 2009,
data is as of September 30.

In September 2006, Republic acquired Miami-based PineBank for
$44.1 million. PineBank was supervised by OCC and was a
CAMELS composite 3-rated bank at the time of acquisition. With
the purchase, Republic acquired $394 million of assets, primarily in
commercial real estate luxury condominium and residential
mortgage loans in South Florida, and more than doubled its assets
to $713 million.

However, many of these loans, approved for 1-4 family homes and
luxury condominiums owned by nonresident aliens, were high-risk
and poorly underwritten. The credit quality of this portfolio
deteriorated rapidly, requiring Republic to add $1 million to its
allowance for loan and lease losses. These loans also resulted in a
high level of credit administration issues because of their liberal
repayment terms and, among other things, the inadequate credit
analyses done when the loans were originated. Key financial
information on borrowers and guarantors was often not on file.
Moreover, Republic’s credit administration practices were not
sufficient to recognize the need for the missing information or
improper classification of its loans.




Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)   Page 5
OCC’s Supervision of Republic
             OCC monitored Republic through regular and timely examinations
             and off-site monitoring. OCC identified many of the bank’s
             weaknesses, communicated concerns to the board and
             management, and took several actions in 2005 to address its
             concerns. These included rating the bank a CAMELS composite 3,
             placing the bank under a Memorandum of Understanding (MOU)
             requiring implementation of corrective actions, and assigning the
             bank to its Special Supervision Division for closer monitoring.

             In September 2006, OCC approved Republic’s purchase of
             PineBank, which significantly increased Republic’s asset quality
             problems. OCC believed that this purchase would allow Republic to
             replace its lost earnings from the PTA business with earnings from
             PineBank’s loans and deposits. OCC also hoped that the infusion of
             PineBank’s stronger compliance management skills would
             strengthen Republic’s management over Bank Secrecy Act (BSA)
             compliance.

             In November 2007, OCC identified significant problems at
             Republic, which resulted in the fourth consecutive CAMELS
             composite 3 rating. Yet, it was not until June 2008 that OCC
             entered into a formal agreement, requiring Republic to provide an
             acceptable strategic plan and hold additional capital. We believe
             OCC should have taken formal enforcement action sooner. OCC
             took appropriate PCA beginning in March 2009, when the bank
             became undercapitalized, but by then it was too late to save the
             bank.

             Table 1 below summarizes the OCC supervisory activity for
             Republic from 2005 to 2009.




             Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)   Page 6
    Table 1. Summary of OCC’s Republic Federal Bank Examinations and Enforcement
             Actions
                                                              Examination Results
                                                        No. of
                                                        matters       No. of
    Date and type          Assets        CAMELS         requiring     corrective    Enforcement
    of examination         (millions)a   rating         attention     actions       actions
    1/24/2005                   $235     3/223322           1               3       MOU issued in
    (full-scope)                                                                    November
                                                                                    2005
    2/10/2006                   $320     3/223322            2             7        MOU in effect
    (full-scope)
    1/29/2007                   $713     3/333422            6             1        MOU in effect
    (full-scope)
    11/08/2007                 $632      3/334422            2             4        MOU in effect
    (targeted)             (9/30/07)
    2/06/2008                  $632      4/344522            8             4        Formal
    (full-scope)                                                                    Agreement
                                                                                    issued in June
                                                                                    2008
    11/08/2008                 $534      5/454532            12             2       Formal
    (targeted)             (9/30/08)                                                Agreement in
                                                                                    effect
    2/10/2009                $482.6      5/555533            12             3       Formal
    (full-scope)           (9/30/09)                                                Agreement in
                                                                                    effect
    Source: OCC reports of examination.
    a
        Asset amounts are as of December 31 unless otherwise noted.
 

             OCC Identified Republic’s Problems and Communicated Its
             Concerns to the Bank

             OCC’s monitoring and examinations were conducted timely. During
             their examinations from 2005 to 2009, OCC examiners identified
             numerous issues and notified Republic of their concerns. For
             example, OCC communicated to Republic, among other things, its
             concerns about the lack of an effective strategic plan and
             weaknesses in the bank’s monitoring of its CDO investments.
             Many of the issues OCC identified were marked as repeat concerns
             from previous examinations.

             In March 2005, OCC assigned the bank to its Special Supervision
             Division for closer monitoring. Republic was assigned to this
             division mostly because of BSA compliance weaknesses, which at
             the time was an area of heightened focus for OCC.

             Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)                  Page 7
                                            Furthermore, OCC rated Republic a CAMELS composite 3 bank in
                                            2005 through 2007, and downgraded the bank to a CAMELS
                                            composite 4 bank in February 2008 and then to a 5 bank in
                                            November 2008 through February 2009. Due to Republic’s lack of
                                            strategic planning and BSA compliance weaknesses associated
                                            with its PTA business, OCC took informal enforcement action by
                                            issuing an MOU in November 2005. The MOU required the board
                                            to establish a written plan outlining strategic objectives regarding,
                                            among other things, earnings, growth, capital adequacy, and
                                            strategies to achieve those objectives. The MOU also required the
                                            board to ensure that the bank had sufficient personnel and controls
                                            to implement and adhere to this plan.

                                            OCC’s Approval of Republic’s Acquisition of PineBank

                                            OCC guidance generally does not allow for the approval of a bank
                                            combination that would result in a combined bank with inadequate
                                            capital, unsatisfactory management, or poor earnings prospects.5
                                            Ten (10) months prior to the PineBank purchase, OCC deemed
                                            Republic to be in troubled condition and among other things, not
                                            eligible to bid on financial institutions offered for sale by FDIC.
                                            Although OCC released Republic from troubled condition status
                                            prior to its acquisition of PineBank, it was not clear from our review
                                            of relevant documentation what happened that persuaded OCC to
                                            make that change. In September 2006, OCC approved Republic’s
                                            purchase of PineBank. At the time, PineBank’s CAMELS composite
                                            rating was a 3. PineBank had been a CAMELS composite 4 bank
                                            from September 2004 until a targeted review in March 2006
                                            resulted in that bank being assigned a CAMELS composite 3 rating.
                                            Given these events, we asked OCC supervisory officials about the
                                            reasoning behind the approval of the PineBank acquisition. They
                                            stated that OCC believed that this purchase would allow Republic
                                            to replace its lost earnings from the PTA business with earnings
                                            from PineBank’s loans and deposits. OCC also hoped that the
                                            infusion of PineBank’s stronger compliance management skills
                                            would strengthen Republic’s management over BSA compliance.




                                                            
5
    Comptroller’s Licensing Manual, Business Combinations, December 2006.

                                            Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)   Page 8
                                            OCC officials also stated their primary concern at the time was for
                                            Republic to exit its high-risk PTA business. 6

                                            OCC Took Formal Enforcement Action When Republic Did Not
                                            Follow Its Strategic Plan, But Should Have Acted Sooner

                                            In June 2008, OCC entered into a Formal Agreement, a formal
                                            enforcement action, with Republic. The formal enforcement action
                                            required that Republic’s board of directors and management
                                            develop a written strategic plan addressing risk factors related to
                                            safety and soundness deficiencies in the CAMELS categories and
                                            keep more capital than the regulatory minimum.

                                            We believe OCC should have taken formal enforcement action
                                            sooner. According to OCC guidance, enforcement action should be
                                            taken as soon as practical to obtain correction of problems. 7 The
                                            November 2007 onsite examination downgraded the management
                                            CAMELS component rating to a 4, rated the bank “less than
                                            satisfactory,” and noted that the bank was engaging in unsafe and
                                            unsound practices. However, it took another 7 months before OCC
                                            finalized its formal enforcement action. When we inquired of OCC
                                            as to why it took so long to issue the formal enforcement action,
                                            we were told that it took time to determine the appropriate course
                                            of action. 

                                            OCC Initiated PCA When Republic’s Capital Levels Declined

                                            As Republic’s capital levels deteriorated, OCC appropriately used
                                            its authority under PCA and acted timely to impose PCA
                                            restrictions on the bank.

                                            The purpose of PCA is to resolve problems of insured depository
                                            institutions with the least possible long-term loss to the Deposit
                                            Insurance Fund. PCA requires federal banking agencies to take
                                            certain actions when an institution’s capital drops to certain levels.
                                            PCA also gives regulators flexibility to discipline institutions based


                                                            
6
  OCC’s Licensing Division issued the actual approval document for Republic’s acquisition of PineBank.
Licensing Division officials told us that although the division is independent of Supervision, they relied
on Supervision’s recommendation in the approval process and were not provided any information with
respect to the banks that would have warranted disapproval.
7
  OCC Policies & Procedures Manual, Enforcement Action Policy (July 30, 2001).

                                            Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)   Page 9
                                            on criteria other than capital levels to help reduce deposit insurance
                                            losses caused by unsafe and unsound practices.

                                            OCC took the following key actions related to Republic in
                                            accordance with PCA requirements:

                                            •      On May 13, 2009, OCC notified Republic that it had become
                                                   undercapitalized based on the bank’s March 31, 2009, call
                                                   report. The letter required Republic to file a capital restoration
                                                   plan (CRP), including a written guarantee from Republic’s
                                                   holding company, by June 15, 2009.

                                            •      On July 1, 2009, OCC rejected the CRP. 8 Furthermore, because
                                                   Republic did not submit an acceptable CRP within the allowed
                                                   timeframe, it was treated as significantly undercapitalized for
                                                   purposes of PCA. With that, OCC reminded Republic that it was
                                                   prohibited from accepting, renewing, or rolling over brokered
                                                   deposits, and restricted the effective yield that the bank could
                                                   offer on insured deposits.

                                            •      On August 6, 2009, OCC notified Republic that it had fallen
                                                   into the significantly undercapitalized PCA category based on
                                                   the bank’s June 30, 2009, call report. The PCA letter noted
                                                   that the bank had not submitted a revised CRP, but remained
                                                   under a continuing obligation to do so.

                                            •      On November 3, 2009, OCC notified Republic that it was
                                                   critically undercapitalized based on the bank’s September 30,
                                                   2009, call report. Again, OCC noted that the bank had not
                                                   submitted a revised CRP, but remained under a continuing
                                                   obligation to do so. PCA mandates that a critically
                                                   undercapitalized bank be put into receivership or
                                                   conservatorship with the concurrence of FDIC within 90 days
                                                   after it becomes critically undercapitalized. OCC appointed FDIC
                                                   as receiver for Republic on December 11, 2009, which was
                                                   within the PCA timeframe.



                                                            
8
 In a letter dated July 1, 2009, OCC informed Republic that its CRP was not acceptable under the
criteria set forth in 12 U.S.C. § 1831o(e)(2)(C), primarily because the CRP would not provide a
sufficient amount of capital, and it was based on future events that were questionable in terms of
succeeding and were not within the bank's control.

                                            Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)     Page 10
Conclusions

                                            Republic lacked an effective board of directors and management
                                            team. It embarked on a series of failed business strategies that
                                            ultimately caused the bank to fail in December 2009. As early as
                                            2005, OCC identified that the bank was troubled and needed close
                                            supervision. By rating Republic a CAMELS composite 3 bank,
                                            placing the bank under an MOU to implement corrections, and
                                            assigning the bank to its Special Supervision Division, OCC
                                            generally took appropriate action. However, when OCC identified
                                            further deterioration in Republic in November 2007, OCC took 7
                                            months to finalize a formal enforcement action when quicker action
                                            was warranted. We believe that formal enforcement action should
                                            have been taken sooner. In this regard, OCC’s guidance already
                                            calls for quick action so we did not see a need for OCC to clarify
                                            guidance regarding the timing of formal enforcement action. This is
                                            not the first time we have concluded that formal enforcement
                                            action should have been taken sooner by OCC. In December 2009,
                                            we reached a similar conclusion in our material loss review of Omni
                                            National Bank. 9

                                                                              ******

                                            We appreciate the courtesies and cooperation provided to our staff
                                            during the audit. If you wish to discuss the report, you may
                                            contact me at (617) 223-8640 or Lisa Ginn, Audit Manager, at
                                            (617) 223-8624. Major contributors to this report are listed in
                                            appendix 4.



                                            /s/
                                            Donald P. Benson
                                            Audit Director




                                                            
9
 OIG, Safety and Soundness: Material Loss Review of Omni National Bank, OIG-10-017 (December 9,
2010).

                                            Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)   Page 11
                                            Appendix 1
                                            Objectives, Scope, and Methodology




                                            We conducted this material loss review of Republic Federal,
                                            N.A. (Republic), of Miami, Florida, in response to our mandate
                                            under section 38(k) of the Federal Deposit Insurance Act. 10 This
                                            section provides that if the Deposit Insurance Fund incurs a
                                            material loss with respect to an insured depository institution,
                                            the inspector general for the appropriate federal banking agency
                                            is to prepare a report to the agency that

                                            •      ascertains why the institution’s problems resulted in a
                                                   material loss to the insurance fund;
                                            •      reviews the agency’s supervision of the institution, including
                                                   its implementation of the prompt corrective action (PCA)
                                                   provisions of section 38; and
                                            •      makes recommendations for preventing any such loss in the
                                                   future.

                                            At the time of Republic’s failure, section 38(k) defined a loss as
                                            material if it exceeds the greater of $25 million or 2 percent of
                                            the institution’s total assets. We initiated a material loss review
                                            of Republic based on the loss estimate by the Federal Deposit
                                            Insurance Corporation (FDIC). As of August 29, 2011, FDIC
                                            estimated that the loss to the Deposit Insurance Fund from
                                            Republic’s failure would be $120.6 million. 

                                            Our objectives were to determine the causes of Republic’s
                                            failure and assess the Office of the Comptroller of the
                                            Currency’s (OCC) supervision of Republic. To accomplish our
                                            review, we conducted fieldwork at OCC’s headquarters and
                                            Special Supervision Division in Washington, D.C., and
                                            Republic’s former headquarters in Miami, Florida. We also
                                            interviewed personnel from FDIC’s Division of Supervision and
                                            Consumer Protection involved in Republic’s closing and
                                            receivership. We conducted our fieldwork from January 2010
                                            through May 2010.

                                            To assess the adequacy of OCC’s supervision of Republic, we
                                            performed the following work:

                                                   •      We reviewed OCC’s supervisory files and records for
                                                          Republic from January 2004 through Republic’s failure on
                                                          December 11, 2009. This period included two targeted
                                                            
10
     12 U.S.C. § 1831o(k).


                                            Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)   Page 12
Appendix 1
Objectives, Scope, and Methodology




        examinations and five safety and soundness
        examinations.

    •   We analyzed examination reports, supporting workpapers,
        and related supervisory correspondence to gain an
        understanding of the problems identified and the
        approach and methodology OCC used to assess the
        bank’s condition, and the regulatory action OCC used to
        compel bank management to address deficient
        conditions. We did not conduct an independent or
        separate detailed review of the external auditor’s work or
        associated workpapers other than those incidentally
        available through the supervisory files.

    •   We interviewed and discussed various aspects of
        Republic’s supervision with OCC officials and examiners
        to obtain their perspective on the bank’s condition and
        the scope of the examinations. We also interviewed FDIC
        officials responsible for monitoring Republic for federal
        deposit insurance purposes.

    •   We interviewed officials from OCC’s Licensing Division
        who were involved in the approval of Republic’s
        acquisition of PineBank.

    •   We interviewed officials from FDIC’s Division of
        Resolutions and Receiverships who were involved in the
        supervision and closing of Republic.

    •   We assessed OCC’s actions based on its internal
        guidance and requirements of the Federal Deposit
        Insurance Act (12 U.S.C. § 1811 et seq.).

We conducted this performance audit in accordance with
generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit
objectives. 


Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)   Page 13
                                            Appendix 2
                                            Background




                                            History of Republic Federal Bank

                                            Republic Federal Bank, N.A. (Republic), Miami, Florida, was
                                            federally chartered in April 1979 as Hemisphere National Bank.
                                            Republic assumed its current name in 2007. Republic was a full-
                                            service community bank without trust powers. The chairman of
                                            the board/chief executive officer (COB/CEO) and Republic's
                                            former president assumed their positions following the Office of
                                            the Comptroller of the Currency’s (OCC) approval of a change in
                                            bank control in 2004. With this change in control, the new
                                            management created a holding company structure where 100
                                            percent of the common stock of the bank was owned by Privee
                                            Financial, Inc., a one-bank holding company. 11 Privee Financial,
                                            Inc., was wholly owned by Privee LLC. The managing partner of
                                            Privee LLC was Remo Duquoin LLC. The COB/CEO and the
                                            bank's former president were controlling partners of Remo
                                            Duquoin until the president’s resignation in April 2009.
                                            Subsequent to the president's resignation, the COB/CEO was
                                            the controlling partner of Remo Duquoin LLC.

                                            In September 2006, Republic acquired substantially all of the
                                            assets and liabilities of PineBank, N.A.

                                            Republic’s main office was in Miami Dade County, Florida, and
                                            the bank had three branches located in and around Miami. As of
                                            September 30, 2009, the bank had approximately $433 million
                                            of total assets.

                                            OCC Assessments Paid by Republic

                                            OCC funds its operations in part through semiannual
                                            assessments on national banks. OCC publishes annual fee
                                            schedules, which include general assessments to be paid by
                                            each institution based on the institution’s total assets. If the
                                            institution is a problem bank (i.e., it has a CAMELS composite
                                            rating of 3, 4, or 5), OCC also applies a surcharge to the
                                            institution’s assessment to cover additional supervisory costs.
                                            These surcharges are calculated by multiplying the sum of the
                                            general assessment by 50 percent for 3-rated institutions or by
                                                            
11
  Privee Financial, Inc., assumed the name Republic Federal Bancorp, Inc., in 2007 concurrently
with the name change of the bank to Republic.


                                            Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)   Page 14
Appendix 2
Background




100 percent for 4- and 5-rated institutions. Table 2 shows the
assessments that Republic paid to OCC from 2006 through
2009.

 Table 2: Assessments Paid by Republic to OCC, 2006–2009

                                                                       Percentage
                                                                          of Total
       Billing Period            Exam Rating         Amount Paid        Collection
 10/1/2006-3/31/2007                  3                 $130,952              0.04
 4/1/2007-9/30/2007                   3                  124,971              0.04
 10/1/2007-3/31/2008                  4                  143,080              0.04
 4/1/2008-9/30/2008                   4                  113,430              0.03
 10/1/2008-3/31/2009                  5                  124,930              0.03
 4/1/2009-9/30/2009                   5                  116,540              0.03
 Source: OCC.



Number of OCC Staff Hours Spent Examining Republic

Table 3 shows the number of OCC staff hours spent examining
Republic from 2005 to 2009.

 Table 3: Number of OCC Hours Spent on Examining Republic, 2005-2009
                                           Number of
    Examination Start Date        Examination Hours*
 1/24/2005                                                904
 2/10/2006                                              4,401
 1/29/2007                                              3,411
 11/8/2007                                                179
 2/6/2008                                               3,615
 11/8/2008                                                352
 2/10/2009                                              4,129
 Source: OCC Examiner View.
 *Unless noted, hours are totaled for full-scope safety and soundness examinations,
 information technology examinations, and compliance examinations and do not
 include time spent performing off-site monitoring.




Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)            Page 15
Appendix 3
Management Response




Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)   Page 16
Appendix 4
Major Contributors to This Report




Boston Audit Office

Lisa Ginn, Audit Manager
Maryann Costello, Auditor-in-Charge
Timothy Cargill, Auditor-in-Charge
Joshua Lee, Auditor

Washington, DC

Katherine Johnson, Referencer




Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)   Page 17
    Appendix 5
    Report Distribution




    Department of the Treasury

        Deputy Secretary
        Office of Strategic Planning and Performance Management
        Office of the Deputy Chief Financial Officer, Risk and Control
           Group

    Office of the Comptroller of the Currency

        Acting Comptroller of the Currency
        Liaison Officer

    Office of Management and Budget

        OIG Budget Examiner

    Federal Deposit Insurance Corporation

        Acting Chairman
        Inspector General

    U.S. Senate

        Chairman and Ranking Member
        Committee on Banking, Housing, and Urban Affairs

        Chairman and Ranking Member
        Committee on Finance

    U.S. House of Representatives

        Chairman and Ranking Member
        Committee on Financial Services

    U.S. Government Accountability Office

        Comptroller General of the United States
 




    Material Loss Review of Republic Federal Bank, N.A. (OIG-12-040)   Page 18
